APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals for
the Ninth Circuit (July 19, 2019)..................... la
Order of the United States District Court for the
District of Hawaii Denying Hee’s Motion
Under 28 U.S.C. § 2255 to Vacate, Set Aside,
or Correct Sentence (September 25, 2018)...... 3a
Albert S.N. Hee Petition for Writ Mandamus Filed
in the Ninth Circuit (October 10, 2018).......... 22a
Albert S.N. Hee Petition for Certificate of
Appealability in the Ninth Circuit
(October 10, 2018)........... ....................

43a

App.la
OPINION OF THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT
(JULY 19, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
ALBERT S.N. HEE,
Defen dan t-Appellan t.
No. 19-15170
D.C Nos. l:18-cv-00104-SOM-RLP,
l:14-cr-00826-SOM-l,
District of Hawaii, Honolulu
IKUTA and N.R. SMITH, Circuit Judges.
The request for a certificate of appealability (Dock­
et Entry No. 6) is denied because appellant has not
shown that “jurists of reason would find it debatable
whether the [section 2255 motion] states a valid
claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also
28 U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134,

App.2a
140-41 (2012); MillerEl v. Cockrell, 537 U.S. 322, 327
(2003).
Any pending motions are denied as moot.
DENIED.

App.3a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF HAWAII DENYING
HEE’S MOTION UNDER 28 U.S.C. § 2255 TO
VACATE, SET ASIDE, OR CORRECT SENTENCE
(SEPTEMBER 25, 2018)
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF HAWAII
ALBERT S.N. HEE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
Civ. No. 18-00104 SOM-RLP, Cr. No. 14-00826 SOM
Susan Oki Mollway, United States District Judge
I. INTRODUCTION.
Petitioner Albert Hee was convicted of having
corruptly interfered with the administration of Inter­
nal Revenue Service (“IRS”) laws in violation of 26
U.S.C. § 7212(a) and of six counts of having filed false
tax returns in violation of 26 U.S.C. § 7206(l). The
evidence at trial established that Hee had character­
ized millions of dollars in personal expenses as busi­
ness expenses incurred by his company, Waimana
Enterprises, Inc. (‘Waimana”). He is currently serving
a sentence of 46 months imprisonment.

App.4a

Hee, proceeding pro se,l now seeks to vacate, set
aside, or correct his sentence under 28 U.S.C. § 2255.
He argues that the IRS fabricated evidence to sup­
port a criminal investigation of him and that the U.S.
Attorney’s Office for the District of Hawaii (“Govern­
ment”) suppressed exculpatory evidence. He also
argues that his trial attorneys provided ineffective
assistance of counsel by failing to review documents
prior to trial and by failing to preserve certain evi­
dentiary objections during trial.
This court denies Hee’s petition without an evi­
dentiary hearing, concluding that Hee’s claims were
already addressed on appeal or that the record estab­
lishes that they lack merit.
II. BACKGROUND.
Three indictments were filed in this case. The
first indictment, filed on September 17, 2014, charged
Hee with one count of willfully filing a false tax return
in violation of 26 U.S.C. § 7206. See ECF No. 1. The
Superseding Indictment, filed on December 17, 2014,
added five more counts for the filing of false tax
returns, and one count alleging corrupt interference
with the administration of IRS laws in violation of 26
U.S.C. § 7212(a). See ECF No. 14. The Superseding
Indictment also introduced allegations that Hee
had failed to properly report Waimana’s payment of
$1,313,261.34 for a Santa Clara house as personal
income, and that he had falsely declared Waimana’s
payment of $718,559.09 for his children’s college
tuition and expenses as a “loan to shareholder.” Id.,
PagelD # 48.
1 Hee was represented by counsel at trial and on appeal.

App.5a

In the Second Superseding Indictment, filed on
March 25, 2015, the Government omitted the allega­
tion that the entire purchase price of the Santa Clara
house should be deemed income to Hee. See ECF No.
56. Instead, the indictment alleged that Hee’s use of
Waimana to purchase the house was part of Hee’s
interference with the IRS’s computation of his income
and tax liability. See id., PagelD #393.
Trial commenced on June 23, 2015. See ECF Nos.
17882, 189-95. Trial evidence established that, between
2002 and 2012, Hee used Waimana to pay millions of
dollars in personal expenses, including personal mas­
sages, college tuition for his children, living expenses
for his children, and credit card charges such as
those for family vacations to France, Switzerland,
Tahiti, Disney World, and the Mauna Lani resort.
Hee also had Waimana pay salaries and benefits to
his wife and children, even while his children were
full-time students doing no work for the company.
And although Hee claimed that he purchased the Santa
Clara house as an investment by Waimana, Hee’s
son and daughter lived in the house while attending
college and rented out rooms to classmates without
submitting the rent proceeds to Waimana. Waimana
wrongfully deducted the expenses on corporate tax
returns, and Hee failed to report the receipt of any
rental income on his personal tax returns. After an
eleven-day trial, the jury returned a verdict of guilty
beyond a reasonable doubt on all counts. See ECF
No. 196.
This court sentenced Hee to (l) 36 months for six
counts of filing false tax returns and a consecutive 10
months for one count of corrupt interference with the
administration of IRS laws, for a total sentence of 46

App.6a

months; (2) supervised release of one year as to the
seven counts, with all terms to run concurrently; (3) a
fine of $10,000.00 to be paid within 14 days of sentenc­
ing; (4) restitution of $431,793.00; and (5) a special
assessment of $700.00 ($100.00 as to each of the
seven counts). See ECF No. 242.
Hee appealed. On March 14, 2017, the Ninth
Circuit filed a memorandum opinion affirming the
judgment. See United States v. Hee, 681 F. App’x 650
(9th Cir. 2017), cert, denied, 138 S. Ct. 268 (2017).
Hee timely filed the present § 2255 petition on March
16, 2018.
III. STANDARD OF REVIEW.
Under 28 U.S.C. § 2255, a federal prisoner may
file a petition challenging the imposition or length of
his or her sentence on any of the following four grounds:
(l) that the sentence was imposed in violation of the
Constitution or laws of the United States; (2) that
the court was without jurisdiction to impose such
sentence; (3) that the sentence was in excess of the
maximum authorized by law; or (4) that the sentence
is otherwise subject to collateral attack. 28 U.S.C.
§ 2255(a). To obtain relief from a conviction under
§ 2255, a petitioner must demonstrate that an error
of constitutional magnitude had a substantial and
injurious effect on the jury’s verdict. See Brecht v.
Abrahamson, 507 U.S. 619, 637-38 (1993).
A petitioner must file a § 2255 motion within
one year from the latest of four dates: (l) when the
judgment of conviction becomes final; (2) when the
impediment to making a motion created by govern­
mental action in violation of the Constitution or laws
of the United States is removed, if the movant was

App.7a

prevented from making a motion by such governmental
action; (3) when the right asserted is initially recog­
nized by the Supreme Court, if that right has been
newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review;
and (4) when the facts supporting the claim or claims
presented could have been discovered through the ex­
ercise of due diligence. 28 U.S.C. § 2255(f).
A § 2255 petition cannot be based on a claim that
has already been disposed of by the underlying crim­
inal judgment and ensuing appeal. See Olney v. United
States, 433 F.2d 161, 162 (9th Cir. 1970) (“Having
raised this point unsuccessfully on direct appeal, appel­
lant cannot now seek to relitigate it as part of a
petition under § 2255.”).
Even when a § 2255 petitioner has not raised an
alleged error at trial or on direct appeal, the petition­
er is procedurally barred from raising an issue in a
§ 2255 petition if the issue could have been raised
earlier, unless the petitioner can demonstrate both
“cause” for the delay and “prejudice” resulting from
the alleged error. United States v. Frady, 456 U.S.
152, 167-68 (1982) (“[T]o obtain collateral relief based
on trial errors to which no contemporaneous objection
was made, a convicted defendant must show both (l)
‘cause’ excusing his double procedural default, and 2)
‘actual prejudice’ resulting from the errors of which
he complains.”). To show “actual prejudice,” a § 2255
petitioner “must shoulder the burden of showing, not
merely that the errors at his trial created a possibil­
ity of prejudice, but that they worked to his actual
and substantial disadvantage, infecting his entire
trial with error of constitutional dimensions.” Id. at 170.

App.8a

A judge may dismiss a § 2255 petition if “it plain­
ly appears from the motion, any attached exhibits,
and the record of prior proceedings that the moving
party is not entitled to relief.” Rule 4(b), Rules Govern­
ing Section 2255 Proceedings For The United States
District Courts. A court need not hold an evidentiary
hearing if the allegations are “palpably incredible” or
“patently frivolous” or if the issues can be conclusively
decided on the basis of the evidence in the record. See
Blackledge v. Allison, 431 U.S. 63, 76 (1977); see also
United States v. Mejia-Mesa, 153 F.3d 925, 929 (9th
Cir. 1998) (noting that a “district court has discretion
to deny an evidentiary hearing on a § 2255 claim
where the files and records conclusively show that
the movant is not entitled to relief’).
IV. ANALYSIS.
The vast majority of Hee’s § 2255 petition relates
to the IRS’s alleged fabrication of evidence and the
Government’s alleged suppression of exculpatory evi­
dence. See ECF No. 268-2, PagelD #s 5681-5712. These
arguments were thoroughly litigated before this court
and on appeal to the Ninth Circuit. Hee’s ineffective
assistance of counsel claims are new, but he fails to
demonstrate that his trial attorneys were deficient in
their representation of him or that he suffered any
prejudice. See id. at 5712-16. Finding no bases sup­
porting the requested relief, this court denies Hee’s
§ 2255 petition.
A. Hee’s Claim that the IRS Fabricated Evidence
Was Disposed of on Appeal.
In his § 2255 petition, Hee argues that IRS Rev­
enue Agent Crystal Carey “fabricated evidence” to

App.9a

“contrive0 a criminal trial from a civil tax audit.”
ECF No. 268-2, PagelD # 5681. Hee identifies the
following “fabricated evidence” from Carey’s testimo­
ny at trial:
(l) Carey’s false depiction of my initial in­
terview to make it appear I was being de­
ceptive; (2) Carey’s fabrication of a state­
ment attributed to independent CPA Chinaka (“Chinaka”) that I “would rather play
the odds of being audited” to show decep­
tiveness; and (3) Carey’s fabrication of a
“threat” I made that was told to her by CPA
Yee (“Yee”).
Id. at 5683. Hee argues that “Carey’s fabricated state­
ments, as recorded on official forms, are the basis
upon which the [Fraud Technical Adviser2] referred
the civil tax audits for criminal investigation which
resulted in the loss of my liberty and property.” Id. at
5687 (footnote omitted). These arguments were all
made to this court and in Hee’s appeal to the Ninth
Circuit.
Prior to trial, on March 23, 2015, Hee filed a mo­
tion to dismiss the entire case “because of the govern­
ment’s institutional bad faith in the investigation of
this case,” or, in the alternative, for an order sup­
pressing evidence collected by Carey. ECF No. 50-1,
PagelD # 304. Hee argued that the IRS’s Internal
Revenue Manual “advised Agent Carey how to con­
duct a secret criminal investigation” and was “evi­
dence of a calculated effort by the IRS to instruct its
2 Fraud Technical Advisors assist in fraud investigations and
offer advice on matters concerning tax fraud. Internal Revenue
Manual (“IRM”) § 25.1.1.1(7).

App.lOa

agents how to deceive taxpayers into thinking they
are facing a routine civil tax examination when they
are facing a criminal tax fraud investigation.” See id.
at 315. This court denied the motion, determining
that “Hee appears to be raising a general challenge
to IRS procedures rather than one to the agent’s indi­
vidual actions.” ECF No. 81, PagelD # 622.
In his motion for new trial filed on August 26,
2015, Hee sought a new trial based on “new evidence.”
See ECF No. 198. This evidence is the same allegedly
fabricated evidence Hee relies on in his § 2255 petition:
(l) Carey mischaracterized Hee’s statements about the
payments to masseuse Diane Doll; (2) Carey falsely
reported that one of Hee’s accountants, David Chinaka, said Hee “would rather play the odds of being
audited” than keep receipts; and (3) Carey falsely
implied that accountant Alan Yee had conveyed a
“threat” by advising Carey not to meet with Hee alone
because he was “frustrated” with the audit. ECF No.
198-1, PagelD #s 3525-30. Hee attached to his motion
for new trial a declaration from Chinaka, denying
making the “playing the odds” statement, and one
from Yee, denying making a threat. See ECF Nos.
198-4, 1986. Hee further argued in seeking a new trial
that a Carey Activity Report (“AR”)3 of the Waimana
audit demonstrated that Carey had sufficient indicia
of fraud to justify a criminal referral by August 5,
2009. ECF No. 198-1, Page ID #s 3534-35, 5343-45.
This court denied the motion for new trial, concluding
that Carey had only preliminary indications of fraud
in 2009 and was not required to make an immediate
3 An AR is “used to document each action taken on the case.”
IRM § 4.10.9.5(1).

App.lla

criminal referral at that time. See ECF No. 213, PagelD
#s 3927-30.
On appeal to the Ninth Circuit, Hee argued the
same issues raised in his March 2015 motion to dis­
miss and August 2015 motion for new trial. See
Appellant’s Opening Brief, No. 16-10018, (Apr. 12,
2016) (“Opening Brief’) at 14-15, 21-28, 32-33, 39-46.
Hee’s § 2255 petition admits as much: “My appeal
challenged both the denial of my pre-and post-trial
motions citing IRS misconduct. ...” ECF No. 268,
PagelD # 5667.
The Ninth Circuit affirmed this court’s denials of
Hee’s motions, noting, “A criminal defendant can
suppress evidence from a civil tax audit if he shows
‘clear and convincing’ evidence of an ‘affirmative mis­
representation’ by the IRS.” Hee, 681 F. App’x at 650
(citing United States v. Bridges, 344 F.3d 1010, 1020
(9th Cir. 2003)). The Ninth Circuit held that “[b]ecause
Hee presented no such evidence, the district court
did not err in denying his motions.” Id. (emphasis
added). Thus, the Ninth Circuit squarely considered
and ruled on the IRS’s allegedly “fabricated evidence”
and “secret criminal investigation.” As a result, Hee
may not now raise these issues in his § 2255 petition.
See Olney, 433 F.2d at 162.
Hee’s § 2255 petition asserts that he has dis­
covered “‘new’ evidence that irrefutably shows that
the Government’s actions were known and taken
intentionally.” ECF No. 268, PagelD # 5670. In a
minute order, this court directed Hee to “identify the
‘new evidence’ he is relying on, as well as the date on
which he or his attorney discovered or received the
‘new evidence.’” ECF No. 283. In his reply, Hee con­
firms that he has not identified any evidence that

App.l2a

was not available prior to the jury verdict, or even
prior to the start of trial. See ECF No. 284, PagelD #
5967 (“The ‘new’ evidence was produced on June 19,
2015. I understood [that] ‘new’ referred to what has
been presented to the Court.”).
Hee’s § 2255 motion also argues that this court
lacked jurisdiction over his case because the Govern­
ment charged Hee based on fabricated evidence, and
that his case should therefore have been tried in Tax
Court. See ECF No. 284, PagelD #s 596768. These
arguments are necessarily tied to the arguments in
his March 2015 and August 2015 motions because they
are based on the idea that the IRS fabricated evi­
dence to bring criminal charges against Hee. Given
the Ninth Circuit’s determination that there was
“no ... evidence” of “an ‘affirmative misrepresentation’
by the IRS,” his arguments cannot succeed here.
B. Hee’s Claim that the Government Suppressed
Exculpatory Evidence Was Disposed of on
Appeal.
Hee’s § 2255 petition argues that the Government
intentionally suppressed exculpatory evidence “until
the eve of trial” in violation of Brady v. Maryland,
373 U.S. 83 (1963). ECF No. 268-2, PagelD # 5681.
He appears to refer to four documents that the Gov­
ernment turned over to the defense with its Jencks
production on June 19, 2015: (l) a “third version” of
Carey’s AR;4 (2) an email dated October 22, 2009, from
4 The Government asserts that that this version of Carey’s AR.
was turned over on May 15, 2015. See ECF No. 282, PagelD #
5950. However, for the purposes of this order, the exact date of
disclosure need not be determined.

App.l3a

IRS leasing specialist Pete Puzakulics concerning the
tax treatment of a Waimana subsidiary’s lease;5 (3)
Carey’s Notice of Proposed Adjustment (“NOPA”),6
which documented Hee’s initial interview statement
that Doll, a person whose fees he characterized as
business expenses, was a masseuse; and (4) Chinaka’s
grand jury testimony. Id. at 5689, 5693. This Brady
argument was raised on appeal and addressed by the
Ninth Circuit.
As Hee concedes in his § 2255 petition, he has
already challenged on appeal “the suppression of
material evidence until just before trial.” ECF No.
268, PagelD # 5667. In the Opening Brief supporting
his appeal, Hee argued that the Government had
failed to timely produce “a third version of Carey’s
AR for Waimana,” which constituted “evidence that
Carey harbored a ‘secret intent’ to refer Mr. Hee’s
case to the [IRS Criminal Investigation Division].”
Opening Brief at 13, 38. More broadly, Hee argued,
“If the Government had timely produced all discovery,
including all internal IRS emails, multiple versions
of the Waimana AR, the Summary of Activity Record,
and Chinaka’s grand jury testimony, there would
have been a reasonable probability that [Hee’s motion
to dismiss filed on March 23, 2015,] would have
resulted in an evidentiary hearing. ...” Id. at 37.
The Ninth Circuit found no Brady violation. That
court explained that, for a Brady violation, “[t]he
suppression must be ‘so serious that there is a reason­
able probability that the suppressed evidence would
have produced a different’ outcome.” Hee, 681 F. App’x
5 A NOPA is issued by the IRS and provides a summary of a
proposed tax adjustment. 5eeIRM § 4.46.4.11.

App.l4a

at 650 (citing Strickler v. Greene, 527 U.S. 263, 281
(1999)). The Ninth Circuit held that “[b]ecause evidence
of guilt was overwhelming, there’s no reasonable
probability that the allegedly suppressed evidence
would have changed the outcome of Hee’s March
2015 motion, August 2015 motion or trial.” Id. Having
been unsuccessful in arguing this issue in his direct
appeal, Hee may not now raise it in his § 2255 petition.
See Olney, 433 F.2d at 162.
The Government states that it “does not believe
Defendant explicitly raised the Puzakulics email in
motions or on direct appeal.” ECF No. 282, PagelD #
5951. Nor does it appear that Hee specifically men­
tioned the NOPA in his Opening Brief on appeal. In a
minute order, this court directed Hee to “specifically
identify any argument that was not or could not have
been raised before this court or the Ninth Circuit
Court of Appeals.” ECF No. 283. Otherwise, this
court said, it would “presume that [the arguments] were
either raised before this court or the Ninth Circuit.”
Id. Hee has identified no such arguments. See ECF
No. 284. Even if the documents Hee points to were not
addressed as part of Hee’s Brady argument on appeal,
Hee may not now raise these alleged Brady errors
absent a showing of both “cause” for the delay and
“prejudice” resulting from the alleged errors. Frady,
456 U.S. at 167-68. Having demonstrated neither cause
nor prejudice, Hee may not now argue that the timing
of the Government’s disclosure of the NOPA and
Puzakulics email constitutes a Brady violation.

App.l5a

C. Hee Has Not Demonstrated That His Trial
Attorneys Failed to Review Documents or
That He Suffered Any Prejudice.
Hee argues that his trial attorneys failed to re­
view certain “Jencks and non-Jencks documents con­
taining uncontroverted evidence of the Government’s
misconduct, and violations of statute and the rules of
the court.” ECF No. 2682, PagelD # 5714. He appears
to be referring to the same documents discussed
above-i.e., the four documents that the Government
turned over to the defense with its Jencks production
on June 19, 2015: (l) the “third version” of Carey’s
AR; (2) Puzakulics’s email dated October 22, 2009,
regarding the tax treatment of a Waimana subsidi­
ary’s lease; (3) Carey’s NOPA regarding Hee’s initial
interview statement that Doll was a masseuse; and
(4) Chinaka’s grand jury testimony. Id. at 5689, 5693.
He argues that, had his attorneys properly reviewed
this evidence prior to trial, “they would have uncov­
ered evidence of the Government’s misconduct and
had the charges dismissed” or “moved to delay the
start of the trial.” ECF No. 268-2, PagelD #s 5972,
5682.
The standard for ineffective assistance of coun­
sel “requires a showing of both deficient performance
by counsel and consequent prejudice.” Ellis v.
Harrison, 891 F.3d 1160, 1164 (9th Cir. 2018) (citing
Strickland v. Washington, 466 U.S. 668, 687 (1984)).
To establish deficient performance, a claimant must
show that “counsel’s representation fell below an
objective standard of reasonableness.” Strickland, 466
U.S. at 688. Prejudice exists when “there is a reason­
able probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been

App.l6a

different.” Id. at 694. “Failure to make the required
showing of either deficient performance or sufficient
prejudice defeats the ineffectiveness claim.” Id. at
700.
The Government’s opposition attaches a declara­
tion from Hee’s trial counsel Steven Toscher, which
states that the trial attorneys did review the Govern­
ment’s Jencks production. See ECF No. 282-1. The
declaration states, “By June 22, 2015, the date that
the trial in this matter began, the Firm had reviewed
all of the documents which had been produced by the
government as part of the Jencks production.” Id.,
PagelD # 5965. To support this statement, the decla­
ration describes steps taken by Hee’s trial attorneys
following their review of the production: (l) on June
20, 2015, Toscher sent several emails to the Govern­
ment asking about “the absence of Jencks material
for various witnesses that had been listed on the gov­
ernment’s witness list”; (2) on June 22, 2018, trial
attorneys prepared a trial cross-examination outline
for Carey and accompanying exhibits from the Jencks
production, including Carey’s NOPA; and (3) because
the Government did not call Carey as a witness at
trial, documents from the Jencks production were used
in support of Hee’s post-trial motions. See id. (citing
ECF Nos. 166, 198, 213). Hee does not dispute that
these steps occurred. And as explained above, the
documents in the Jencks production served as the
basis for some of Hee’s arguments on appeal. Thus,
there is no indication that Hee’s trial attorneys failed
to appropriately review the Jencks production.
Hee’s reply argues that the Government committed
several discovery violations and that a “reasonable
attorney would have realized he needed a stay once

App.l7a

their review of the Jencks production revealed the
non-Jencks evidence.” See ECF No. 284, PagelD #s
5972-73. The decision whether to move to stay a trial
or to ask for a continuance is a tactical one. Tactical
decisions are given “great deference,” and Hee has
not offered any persuasive reason as to why a stay
was necessary. See Dows v. Wood, 211 F.3d 480, 487
(9th Cir. 2000). Hee attempts to argue that the docu­
ments are evidence of the IRS’s fabrications and
therefore constitute “exculpatory evidence” that his
attorneys should have further explored. See ECF No.
284, PagelD # 5974 (citing Stankewitz v. Wong, 698
F.3d 1163 (9th Cir. 2012)). This argument is unavail­
ing because, as the Ninth Circuit held, Hee has pre­
sented “no such evidence” of any IRS misrepresenta­
tion. Hee, 681 F. App’x at 650.
In addition to failing to demonstrate that his at­
torneys failed to review Jencks material, Hee fails to
demonstrate that he suffered any prejudice. He
simply asserts that the charges against him would
have been dismissed, without explaining how his
attorneys’ alleged failure to review the documents
affected the proceedings. As mentioned above, the
Ninth Circuit reviewed these documents in the con­
text of Hee’s Brady argument and held that the “evi­
dence of guilt was overwhelming” and that “there’s
no reasonable probability that the allegedly sup­
pressed evidence would have changed the outcome of
Hee’s March 2015 motion, August 2015 motion or
trial.” Hee, 681 F. App’x at 650. Thus, the Ninth
Circuit has already ruled that these documents had
limited impact on Hee’s trial.
Because Hee has not demonstrated that his trial
attorneys provided ineffective assistance in their

App.l8a

review of the Government’s Jencks production, the
court does not grant Hee § 2255 relief on this ground.
D. Hee’s Trial Counsel’s Failure to Object to an
Evidentiary Ruling Does Not Constitute Inef­
fective Assistance of Counsel.
Finally, Hee argues that his trial attorneys pro­
vided ineffective assistance by “fail[ing] to properly
object to the trial court’s rulings on the admissibility
of testimony by [Hee’s] family.” ECF No. 268-2,
PagelD # 5716. Hee argues that, “Db]y not properly
objecting, my trial counsel denied me the opportunity
to have the appellate court review the evidence ruled
hearsay and inadmissible by the trial court.” Id. This
argument relates directly to the Ninth Circuit’s
ruling on Hee’s appeal.
At trial, Hee sought to have his wife and children
testify about their “understanding” of why Hee did
certain things and why Waimana made certain pay­
ments. As discussed extensively in the court’s order
denying Hee’s motion for new trial, the court ruled
that such testimony was inadmissible hearsay, although
the witnesses could testify about their understandings
upon the laying of a foundation that the understandings
were based on something other than out-of-court state­
ments by Hee. See ECF No. 213, PagelD #s 3931-38.
On appeal, Hee raised this ruling as a point of er­
ror. See Opening Brief at 47. The Ninth Circuit held:
Because Hee failed to properly object below,
we review the district court’s decisions con­
cerning the admissibility of testimony for
plain error. See United States v. Lopez, 762
F.3d 852, 859 (9th Cir. 2014). Under this stan-

App.l9a

dard, Hee must show that any error was not
“subject to reasonable dispute.” Id. at 863
(citations and internal quotation marks
omitted). But it’s a matter of reasonable dis­
pute whether questions concerning “the un­
derstanding” of Hee’s family members were
intended to elicit hearsay rather than evi­
dence of Hee’s contemporaneous good faith.
Nor did the exclusion of this line of ques­
tioning affect the outcome of the proceeding.
Hee’s defense, which lasted five days and
included seventeen witnesses, amply aired
the available evidence of his alleged good
faith.
Hee, 681 F. App’x at 650 (emphasis added). In his
§ 2255 petition, Hee focuses on the Ninth Circuit’s
mention of the “fail[ure] to properly object below” and
asserts that it indicates ineffective assistance of
counsel.
Hee’s ineffective assistance of counsel argument
fails for several reasons. First, Hee was not deprived
of review by the Ninth Circuit because, in issuing the
memorandum opinion quoted above, the Ninth
Circuit carefully considered the excluded testimony
by Hee’s family.
Second, Hee does not establish deficient per­
formance by his trial attorneys. The failure to object
to an evidentiary ruling, without more, does not con­
stitute representation “below an objective standard of
reasonableness” because such a decision could be
understood as an objectively reasonable tactical deci­
sion. See Strickland, 466 U.S. at 688-89 (explaining
the strong presumption that challenged actions were
sound trial strategy and that counsel’s tactical deci-

App.20a

sions are given “wide latitude”); see also Larimer v.
Yates, 483 F. App’x 317, 319-20 (9th Cir. 2012)
(holding that trial counsel did not provide ineffective
assistance in failing to object to the admission of
testimony). The Ninth Circuit held that Hee’s trial
attorneys “amply aired the available evidence of
[Hee’s] alleged good faith,” further indicating that his
trial attorneys were not deficient in eliciting testimo­
ny going to the reasoning behind Hee’s actions. See
id.
Finally, Hee has not argued that he suffered any
prejudice at trial—i.e., that “the result of the pro­
ceeding would have been different” had his trial
attorneys objected. See Strickland, 466 U.S. at 694.
Nor does Hee demonstrate that the outcome of the
proceeding would have been different had his family
members testified as to their “understanding” of the
reasons for Hee’s actions. The Ninth Circuit concluded
that “the exclusion of this line of questioning [did
not] affect the outcome of the proceeding,” effectively
holding that Hee suffered no prejudice. Hee, 681 F.
App’x at 650.
As a result, Hee’s ineffective assistance of coun­
sel claim with respect to the evidentiary objection
fails.
V.

CONCLUSION.

Hee’s § 2255 petition is denied. The Clerk of
Court is directed to enter judgment for the Govern­
ment and to close
Civil No. 18-00104 SOM-RLP.
IT IS SO ORDERED.

App.21a
DATED: Honolulu, Hawaii, September 25, 2018.
/s/ Susan Oki Mollwav
Susan Oki Mollway
United States District Judge
Albert S.N. Hee v. United States of America. Civ. No.
18-00104 SOM-RLP, Cr. No. 14-00826 SOM; ORDER
DENYING HEE’S MOTION UNDER 28 U.S.C. § 2255
TO VACATE, SET ASIDE, OR CORRECT SEN­
TENCE.

App.22a
ALBERT S.N. HEE PETITION FOR WRIT
MANDAMUS FILED IN THE NINTH CIRCUIT
(OCTOBER 10, 2018)
Albert S.N. Hee
04602-122
FPC Terre Haute
P.O. Box 33
Terre Haute, IN 47808
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ALBERT S.N. HEE,
Petitioner,
v.
UNITED STATES DISTRICT COURT OF HAWAII
Petition for Writ Mandamus;
Petitioner’s 2255 Reply Brief
PETITION FOR WRIT MANDAMUS
Albert S.N. Hee (“Petitioner, I, me, my”), requests
this court issue a Writ of Mandamus to direct the
District Court of Hawaii to follow this Court’s prece­
dent rulings in Devereaux v. Abbey, 263 F.3d 1070
(CA9 200l)(en banc) and United States v. Bogart,
783 F.2d 1428 (CA9 1986)(en banc) and immediately
vacate my conviction. The district court did not follow
several binding precedents cited in my 28 USCS
Section 2255 Motion (“habeas motion”) and did not

App.23a

address its reasoning on any of them. The first
occurred in denying a protective order I requested,
citing Bittaker v. Woodford, 331 F.3d 715 (CA9 2003)
(en banc). The district court’s refusal to follow stare
decisis continued with the binding precedents cited in
my briefs showing why the law of the case was incor­
rectly decided due to structural error citing Kotteakos
v. United States, 328 US 750 (1946). These and other
cases cited in my habeas briefs are binding prece­
dents (“stare decisis, law of the circuit)” which demon­
strate the government violated my substantive con­
stitutional due process. By not following stare decisis,
the district court committed ‘clear error.’
BACKGROUND
On September 25, 2018, the District Court of
Hawaii denied Petitioner’s 28 USCS 2255 Motion to
Vacate, Set Aside, or Correct Sentence in Civil Case
No. 18-00104 SOM-RLP without a hearing. Petition­
er represented himself pro se.
Petitioner was represented by counsel during tri­
al and direct appeal. Petitioner’s counsel did not cite
this court’s Devereaux and Bogart binding precedent
decisions in my post trial briefs before the district
court or in my briefs before this Circuit Court during
direct appeal. Counsel argued procedural instead of
substantive due process violations. This court’s holdings
in Devereaux and Bogart are directly on point to the
material facts in petitioner’s criminal trial and should
have resulted in vacating of my conviction. The materi­
al facts were not properly litigated commensurate
with the laws of the circuit at the trial or on direct
appeal because of my counsels’ failure to cite the
applicable binding precedents. Petitioner only became

App.24a

aware of the binding precedent cases after deciding to
represent myself. In preparing my request for recon­
sideration of this court’s unpublished memorandum
opinion, I stumbled across this court’s binding prece­
dent decisions in Devereaux, Bogart and Atkins v.
County ofRiverside, 151 Fed Appx 501 (2005).
My counsels’ failure to raise and argue the legal
issues at trial and on direct appeal prevented this
court from considering them on my motion for recon­
sideration. ITOW v. Washington, 350 F.3d 925,929
(CA9 2003) ([This court] “will not consider any claims
that were not actually argued in appellant’s opening
brief.”) The United States Supreme Court was
similarly unable to grant certiorari. Petitioner’s only
venue was a habeas motion. “The writ of habeas corpus
stands as a safeguard against imprisonment. . . judges
must be vigilant and independent in reviewing peti­
tions ...” Harrington v. Richer, 562 US 86, 90 (2011).
Petitioner’s habeas motion is based on this court’s
binding precedent cases. Instead of following or dis­
tinguishing the binding precedent cases, the district
court purposely ignored this court’s laws of the circuit.
The district court did not follow stare decisis in its
decision and closed the case. The district court’s deci­
sion, including closing the case, denies me the right
to appeal on this Court’s binding precedents.
MANDAMUS
This court issued at least two Writs of Mandamus
to enforce stare decisis in 2017. In (In Re: Dan Farr
Prod.) v. United States District Court, 874 F.3d 590
(CA9 2017) and In re: Zermeno-Gomez v. United States
District Court, 868 F.3d 1048 (CA9 2017), this Court
found the district courts’ refusal to follow stare decisis

App.25a

involving substantive constitutional rights justified
the use of the Writ of Mandamus to correct. In re:
Dan Farr Prod, involved a prior restraint on speech,
violating the First Amendment. In re: ZermenoGomez involved the physical restraint of pre-trial
detainees, violating the Fifth Amendment. The dis­
trict court’s refusal to follow this court’s Devereaux
and Bogart binding precedents in my case violates
my substantive constitutional right to due process
and is a restraint on my liberty and property. At­
tached is my 2255 Reply brief to show Devereaux
comprised the heart of my arguments
My issue is the same as In re: Dan Farr Prod.
and In re: Zermeno-Gomez. ‘Is the district court bound
by binding precedent.’ In all three cases, the district
court made a tactical decision to manipulate the pre­
clusive effect of this circuit’s prior judgment, a right
that even this court does not have. “It is indeed, a
high function of mandamus to keep a lower tribunal
from interposing unauthorized obstructions to enforce­
ment of a judgment of a higher court.” United States
v. United States Dist. Ct., 334 U.S. 258, 264 (1948).
Stare Decisis requires this court and all courts within
this circuit to follow the binding precedent until it is
overturned. A circuit court’s binding precedent can
only be superseded by the same circuit court or the
United States Supreme Court. A district court cannot
overturn, disregard or ignore binding precedent.
The standards for a Writ of Mandamus is set out
in Bauman v. United States, 557 F.2d 650 (CA9 1977).
the five Bauman factors are whether the: (l) petition­
er has no other means, such as a direct appeal, to
obtain the desired relief; (2) petitioner will be dam­
aged or prejudiced in any way not correctable on

App.26a

appeal; (3) district court’s order is clearly erroneous
as a matter of law; (4) district court’s order is an oft
repeated error or manifests a persistent disregard of
the federal rules; and (5) district court’s order raises
an important problem or issue of first impression.
Only the absence of clear error is fatal to the issuing
of a writ. The other factors need not be present. In re:
Zermeno- Gomez.
(1) PETITIONER HAS NO OTHER MEANS, SUCH
AS DIRECT APPEAL, TO OBTAIN THE
DESIRED RELIEF;
I already exhausted my direct appeal of my con­
viction. This court was unable to consider its laws of
the circuit because my counsel did not argue them.
To appeal the district court’s decision denying
my habeas motion requires a Certificate of Appeala­
bility. This court requires I first apply to the district
court before this court may, in the interest of “sub­
stantial justice” issue a Certificate of Appealability if
the district court denies my request. United States v.
Martin, 226 F.3d 1042, 1046 (CA9 2000). The district
court did not address my request for a Certificate of
Appealability in the ‘relief requested’ section of my
briefs. Instead, as part of denying my habeas motion,
the district court ordered the “Clerk to close the
case.” The district court’s decision not to address the
laws of the circuit and my request for a Certificate of
Appealability, set in motion a prejudicial process of
trying to find a method to obtain relief and making
arguments without benefit of the district court’s dis­
tinguishing conclusions on the laws of the circuit.
Obtaining relief from my forty six (46) month
sentence before serving the entire sentence can only

App.27a

come from this petition. I have twelve (12) months
remaining.
(2) PETITIONER WILL BE DAMAGED OR PRE­
JUDICED IN ANY WAY NOT CORRECTABLE
ON APPEAL;
My tax conviction has precipitated other civil cases,
one of which is a foreclosure action currently before
the District Court of Hawaii. The United States,
represented by Department of Justice (“DOJ”) in
Washington DC, has moved for summary judgment
in Civil No. 18-145 JMS-KSC which names several
companies I established, several former officers of those
companies and myself as individuals. I am appearing
pro se. The hearing is currently scheduled for Novem­
ber 13, 2018. The government has cited my tax con­
viction in cases related to this action to prejudice me.
The expected publicity of my tax conviction if allowed
to stand, will be damaging. The companies I estab­
lished and the individual defendants have been and
will continue to be prejudiced because of my wrongful
conviction. If the government prevails, native Hawaiians living on Hawaiian Home Lands could lose
communications service that is being provided by the
defendant companies in this case.
My health was a major consideration in my sen­
tencing. I now have five potentially fatal health
issues. When I was incarcerated, I had four. My
health has suffered and continues to suffer while
incarcerated. The same month I arrived at Terre
Haute, the Terre Haute, Bureau of Prisons (“BOP”)
doctor, requested I be immediately transferred
because I was not safe at this facility. The transfer
was denied twice, with the last by DOJ-BOP in

App.28a

Washington DC. More than a year later, I am still here.
The District Court of Southern Indiana is currently
considering my request to be moved to a more
suitable facility. My health continues to decline. The
vast majority of Devereaux cases are after the defend­
ant has served his complete sentence. Devereaux
should also serve to prevent incarceration. “Substan­
tive due process protects individuals from arbitrary
deprivation of their liberty by government.” Constanch
v. Washington, 627 F.3d 1101, 1110 (CA9 2010).
(3) DISTRICT COURT’S ORDER IS CLEARLY
ERRONEOUS AS A MATTER OF LAW; LAW
OF THE CIRCUIT—DEVEREA UX
This court reaffirmed its Deverea ux binding pre­
cedent as recently as 2017. “A Devereaux claim is a
claim that the government violated due process rights
by subjecting the plaintiff to criminal charges based
on deliberately fabricated evidence.” Bradford v.
Scheschligt, 803 F.3d 382, 386 (CA9 2015). The defin­
ition of a Devereaux claim was refined by Costanich v.
Washington, 627 f.3d 1101 (CA9 2010) and Spencer
v. Peters, 857 F.3d 789 (CA 9 2017). In Costanich, this
court clarified the Devereaux test to include “ . . . direct
evidence that the investigator had fabricated evidence-for example, direct misquotation [written mischaracterization] of witnesses in investigative re­
ports.” at 1111. In Spencer, this court established an
objective test. Deliberate fabrication can be estab­
lished either by: (l) circumstantial evidence that gov­
ernment officials continued their investigation, despite
the fact that they knew or should have known that
the person was innocent; OR (2) direct evidence, such
as when an interviewer deliberately mischaracterizes

App.29a

a witness statement. My case meets both elements of
the test.
In Spencer, the detective and her supervisor fab­
ricated false evidence. The original prosecutor de­
clined to prosecute concluding the case was ‘legally
insufficient.’ The detective and her supervisor contin­
ued the investigation, fabricating additional false evi­
dence, including mischaracterizing witness statements,
which led to a guilty plea in 1985. In 2004, after
nearly 20 years of incarceration, the Governor commu­
ted Spencer’s sentence. Spencer then filed a section
1983. complaint. All of the fabrications, including the
mischaracterizations, were recorded on investigative
forms.
My case is remarkably similar to Spencer. IRS
civil agent Carey and her group manager Kamigaki
fabricated false evidence during a civil audit of my
companies. After beginning the audit, Carey inter­
viewed me on May 7, 2008. Amongst other questions,
Carey asked me about a consulting fee Waimana
Enterprises, Inc. (“Waimana”) paid to Diane Doll. I
immediately answered that Doll was my masseuse.
However, in her Corporate Interview Questionnaire,
Carey mischaracterized my truthful answer instead
recording; “[question] 18. $6,000 consulting fee paid
to Diane Doll. What for? [answer] Albert Hee: “You
never know where you are going to get information
about the competition from.” My case was forwarded
to the IRS Fraud Technical Advisor (“FTA”) for
review. Over a year later when Carey was preparing
her Notice of Proposed Adjustment (“NOPA”) docu­
ments, Carey recorded my truthful statement.
On October 22, 2008, the FTA concluded there
was ‘no civil or criminal fraud.’ Two weeks later, on

App.30a

November 5, 2008, Carey interviewed David Chinaka, one of Waimana’s Certified Public Accountants
(“CPA”) and fabricated another false statement ‘from
whole cloth.’ Carey recorded Chinaka as saying “Mr.
Hee was aware of the requirements, but. . . would
rather play the odds of being audited rather than
keep receipts.” Chinaka later testified that he had no
recollection of making the statement, affirmatively
denied making them and provided an affidavit.
On May 26, 2009, Carey and Kamigaki met with
CPA Alan Yee, a partner with KMH, the accounting
firm representing Waimana in the audit and fabri­
cated another false statement by mischaracterization. According to Carey, Yee “repeated to me at least
four times: Mr. Hee is frustrated, I wouldn’t go alone
[to meet], please take your manager.” Carey thought
the “kindest interpretation” of that message was “that
Mr. Yee thought Mr. Hee would be better behaved
with a manager present,” while “the worst interpret­
ation is that Yee deemed Mr. Hee to be a threat to
me.” Carey and Kamigaki “discussed whether this
had been a threat, and agreed that it seemed like it.”
After being informed of his statement, Yee stated he
never intended for his comments to be construed as a
threat in an affidavit. The Internal Revenue Manual
(“IRM”) identifies a threat as requiring immediate
criminal referral. There is no record of Kamigaki
informing the FTA or calling the police or IRS crim­
inal agents.
Carey recorded all of the above on the multiple
copies of IRS Form 9984, examining Officer’s Activity
Record (“AR”) she was keeping. Carey also kept at
least one unofficial activity record. The IRM 4.10.9.5,
describes the AR as a contemporaneous record that

App.31a

provides “a complete and concise case history,” chron­
icling “all actions on the part of the examiner, group
manager, clerical support staff,” taxpayer and others
during the audit. The [AR] “should include the date,
location, time charged and an explanation of each
activity or contact...” After my indictment in Sep­
tember 2014, the prosecutors produced three ARs over
a period of nine (9) months. The first on October 20,
2014, was completely redacted; the second on Febru­
ary 11, 2015 and the third on June 19, 2015, without
Bates evidentiary numbers. Of the thousands of doc­
uments produced, the third AR is the only document
without Bates evidentiary numbers on its pages.
The entries on the second AR do not match the
entries on the third AR. One specific discrepancy is
the date of the interview with CPA Chinaka. The
second AR records the date as November 5, 2008.
The third AR records the interview date as Novem­
ber 5, 2007, before Carey began her audit. The 2007
date is wedged between all other entries with the cor­
rect dates. The third AR, with the wrong date and
without Bates evidentiary numbers, was produced
without notice on the Friday before Monday’s trial
with the Jencks material, nine months after I was
indicted. The wrong date, absence of Bates evidenti­
ary numbers, extremely late production without
notice, Chinaka’s affidavit and the absence of the
government contesting the fabrications or submitting
counter affidavits, indicates Carey deliberately fabri­
cated the statement and recorded it after the fact.
The government did not contest my fabrication ‘allega­
tions’ in the post trial, direct appeal or habeas motion.
The first prong of the Devereaux test; ‘circum­
stantial evidence that Carey and Kamigaki contin-

App.32a

ued the investigation after knowing I was innocent’ is
met. Carey was conducting a civil audit. The fabri­
cated false statements have nothing to do with the
calculation of the amount of taxes my companies
owed. The fabricated statements were made to show I
was deceptive and threatening, issues which typically
trigger the conversion of a civil audit to a criminal
investigation.
The FTA found there was no criminal or civil
fraud after the first fabricated statement. Carey and
Kamigaki continued their investigation fabricating
two more false statements. The first prong of the
Devereaux test is satisfied by Carey and Kamigaki
continuing to use the civil audit to obtain a criminal
referral from the FTA by fabricating false state­
ments.
The second prong of the Devereaux test is satis­
fied by direct evidence of Carey’s mischaracterization
of both: my statement made during the May 7, 2008
interview; and CPA Yee’s statement made during his
May 26, 2009 interview. All of the fabricated false
statements are recorded on Carey’s ARs. The prose­
cutors produced one Form 2797, Referral Report of
Potential Criminal Fraud Cases (“referral report”).
The referral report contains only two “badges of
fraud” implicating me of deception. Both were the
result of the first two fabricated false statements.
The prosecutors never produced a referral referral
report that generated the FTA’s first finding of ‘no
criminal or civil fraud.’

App.33a

LAW OF THE CIRCUIT—OUTRAGEOUS
GOVERNMENT CONDUCT—BOGART
Outrageous Government Conduct (“OGG”) is a
claim that government conduct in securing an indict­
ment was so shocking to due process values that the
indictment must be dismissed. United States v. Mon­
toya, 46 F.3d 1286, 1300 (CA9 1995). A district court
may dismiss an indictment on the ground of OGC if
the conduct amounts to a substantive due process
violation. United States v. Simpson, 813 F.2d 1462,
1464-65 (CA9 1987).
The court established guidelines which when met
indicate OGC are: (l) the government engineers and
directs a criminal enterprise from start to finish United
States v. Smith, 924 F.2d 889, 897 (CA9 1991); and
(2) the government generates crimes merely for the
sake of making criminal charges. United States v.
Gurolla, 333 F.3d 944, 950 (CA9 2003).
A civil tax audit can end in one of four ways: (l)
no findings; (2) issuing of NOPA(s); (3) a civil fraud
trial in tax court; or (4) a criminal fraud tax trial in
district court. I was not aware of Carey and Kamigaki fabricating statements until the government
produced Carey’s second AR on February 11, 2015,
five (5) months after my indictment. In October 2008,
the FTA told Carey and Kamigaki there was ‘no civil
or criminal fraud.’ Carey and Kamigaki continued to
fabricate false statements until the FTA reversed his
original finding, referring my case to IRS Criminal
Investigative Division (“CID”) in October 2009. During
the August 21, 2013; investigative Grand Jury of CPA
Chinaka, the Prosecutor acknowledged in his answer
to the Grand Jury foreman, that Carey fabricated

App.34a

evidence and recorded it on two ARs. The conversion
of Waimana’s civil tax audit to criminal charges
against me was engineered and directed from start to
finish by the government, meeting the first prong of

the OGC test.
The government could have continued with the
civil tax audit after the FTA found ‘no civil or
criminal fraud.’ If they found taxes were due, the
government could have issued a NOPA. Additionally,
after the August 21, 2013, investigative Grand Jury,
the prosecutor should have notified me about Carey’s
fabricated statement or dropped the criminal investi­
gation. “Evidence that a chief investigator fabricated
evidence while attempting to build a case against the
defendant undermines the credibility of that investi­
gator as well as the evidence compiled in that inves­
tigation.” Atkins at 504. Instead, the prosecutor con­
tinued his investigation and indicted me in Septem­
ber 2014. The government chose to generate a crime
by continuing the civil audit to fabricate more evi­
dence and not stopping the criminal investigation.
They did this ‘merely for the sake of making
criminal charges.’ The government’s actions meet the
second prong of OGC.
This Court also established the following guide­
lines which if present do not constitute OGC; (l) the
defendant was already involved in a continuing series
of similar crimes, or the charged criminal enterprise
was already in process at the time the government
agent became involved; (2) the agent’s participation
was not necessary to enable the defendants to contin­
ue the criminal activity; (3) the agent used artifice
and stratagem to ferret out criminal activity; (4) the
agent infiltrated a criminal organization; and (5) the

App.35a

agent approached persons already contemplating or
engaged in criminal activity. United States v. Williams,
547 F.3d 1167 (CA9 2008). The five prongs that do
not constitute OGC are not present.
I was not a criminal until being wrongfully con­
victed and the companies are not criminal organiza­
tions.
To violate due process, outrageous governmental
conduct must be so grossly shocking and so out­
rageous as to violate the universal or public’s sense of
justice. Substantive due process rights are violated
when a Government action “offend [s] the community’s
sense of fair play and decency” and “shocks the con­
science.” Bochin v. California, 342 US 165, 172 (1952).
“Deliberate indifference that shocks in one environ­
ment may not be so patently egregious in anoth­
er ... ” County of Sacramento v. Lewis, 523 US 833,
834 (1998). Government actions that shock the con­
science rise to the level of a substantive constitution­
al due process violation when they are taken, “upon
the luxury enjoyed by . . . officials . . . having time to
make unhurried judgments, upon the chance for
repeated reflection, largely uncomplicated; by the
pulls of competing obligations ...” Id.
Carey and Kamigaki decided to fabricate false
evidence during a civil tax audit. An unhurried process
they controlled which therefore allows for repeated
reflection. Similarly, the prosecutors made their deci­
sions to continue the criminal investigation, after
acknowledging Carey’s fabrication during an investi­
gative Grand Jury. The US Attorney’s office controls
the investigative process which therefore allows for
‘unhurried and repeated reflection.’ The prosecutors
also decides whether to suppress exculpatory evi-

App.36a

dence and lie to the court. Everyone who pays taxes
would agree: deliberate fabrication of evidence by the
IRS agent and her supervisor conducting a civil
audit; and the prosecutor continuing a criminal inves­
tigation after acknowledging the fabrication, indict­
ing me, then suppressing exculpatory evidence “shocks
the conscience” and violates the substantive due
process right protected by the constitution.
From start to finish, my criminal trial was wholly
manufactured by the government. The IRS fabricated
evidence to justify converting a corporate civil audit
to a personal criminal prosecution and, after acknow­
ledging the fabrication, the US Attorney deliberately
withheld exculpatory evidence. I did not participate
or know about this misconduct until after being
indicted. The government acted alone when it en­
gaged in these wrongful acts to manufacture a crime
simply for the ‘sake of bringing criminal charges’
against me.
In Bogart, this court recognized that there are
“occasions when the factual nature of the govern­
ment’s conduct is not disputed or perhaps, is very
obvious and straightforward [thus allowing] an
appellate court... to resolve the appeal without the
benefit of findings of fact by the district court.”
Bogart at 1434. Here, the evidence of the govern­
ment’s outrageous conduct are all documented. The
district court decided not to hold a hearing before
making a decision. I was prepared to argue the laws
of the circuit. A hearing would have made it ex­
tremely difficult for the district court to ignore stare
decisis. Most OGC cases are entrapment cases where
the court has to weigh the defendant’s role. This is
simply a case of framing. I had no role. The documents

App.37a
which record the government’s actions are part of the
record on appeal (Appeal No 16-10018). Most of them
are also attached to my habeas brief. The majority of
material facts that violate my substantive due process
under Devereaux and Bogart were pointed out in my
opening brief for my direct appeal. I do not have the
access or facilities to copy and attach the documents
to this Petition. A decision can and should be reached
by this court without remanding for a hearing.
(4) DISTRICT COURTS ORDER IS AN OFT
REPEATED ERROR OR MANIFESTS A PER­
SISTENT DISREGARD OF FEDERAL RULES;
The district court repeatedly ignored and did not
address the laws of the circuit I cited. The first
instance was in my request for a protective order
before the court waived my attorney-client privilege.
Citing Bittaker v. Woodford, 331 F.3d 7158 (CA9 2003)
(en banc), as binding precedent, the prosecutor moved
for a waiver. In response, I requested a protective
order also citing Bittaker (If a district court exercises
its discretion to allow such discovery ... it must ensure
compliance with the fairness principle. To that end,
it must enter appropriate orders clearly delineating
the contours of the limited waiver BEFORE com­
mencement of discovery, and strictly police those
limits thereafter.) at 728 emphasis added; see also
Cheney v. United States District Court, 542 US 367,
376, 379 (2004) (defendant moved for protective order,
but district court issued order allowing discovery to
proceed.) In my response to the motion for waiver, I
stated; “ . . . I request that [the waiver] come in the
form of a protective order as in Bittaker. . . This is
especially necessary as; (i) there are a number of
Government agencies, including USDOJ that have

App.38a

been following my case and may pursue criminal
and/or civil actions ...” The district court allowed
discovery to proceed without addressing Bittaker, it
its final order denying me a protective order, the dis­
trict court simply stated: “To the extent Defendant
Albert Hee renews his request for a protective order,
that renewed request is denied in light of the Gov­
ernment’s response of April 27, 2018.”
The district court did not consider any of the
binding precedent cases I cited in my briefs simply
relying on this court’s unpublished memorandum
opinion as the law of the case. The law of the case
does not supersede the law of the circuit. While there
is some discussion as to whether a three judge panel
may be able to overturn the law of the circuit, there
is no disagreement that a district court is bound by
the law of the circuit, see Miller v. Gammie, 335 F.3d
889, 899-903 (CA9 2003). In my habeas briefs, I cited
laws of the circuit and showed structural error
negating the harmless-error standard used by this
court in reaching its opinion. The district court
should not ignore explanations, including legal argu­
ments, of why the law of the case is wrong then issue
its decision without including an explanation.
The district court has found a novel way to disre­
gard stare decisis.
(5) DISTRICT COURT’S ORDER RAISES AN
IMPORTANT PROBLEM OR ISSUE OF FIRST
IMPRESSION.
“The issue of whether a published decision of
this court is binding on lower courts within the
circuit. . .is plainly an issue of “major importance to
the administration of the district courts.” In re: Dan

App.39a

Farr Prod, at 1051 citing In re Cement Antitrust Litig.
(MDL No. 296) 688 F.2d 1297, 1307 (CA9 1982). “The
exercise of our authority is therefore appropriate in
this matter.” id. This court should continue to exer­
cise its authority regarding stare decisis by another
Writ of Mandamus.
SUMMARY
This whole ordeal, tax audit, criminal referral,
indictment, prosecution, trial, post trial and habeas
motion has been marked by the government denying
me my procedural due process to hide a denial of my
substantive constitutional due process. The chief
investigator, Carey, and her IRS supervisor, Kamigaki,
began by fabricating evidence all of which is docu­
mented on official IRS forms. That led to the IRS
FTA reversing his finding of no criminal or civil
fraud. The prosecutors then hid the evidence of the
fabrications beginning during an investigative grand
jury when the prosecutor acknowledged that Carey
fabricated evidence. Rather than immediately notify
me as required by Giglio v. United States, 405 US
150 (1972), they indicted me. The prosecutors contin­
ued to suppress exculpatory evidence by lying in open
court during my pre-trial discover motion hearing
both stating, “all of the evidence had been produced.”
Based on their lies, I was denied my pre-trial motions
for discovery and to dismiss. The prosecutors finally
produced the exculpatory evidence I needed on the
Friday before Monday’s trial, without notice and
mixed in with the Jencks evidence. My attorneys did
not understand the significance of the non-Jencks
evidence and did not move to prevent the trial from
beginning.

App.40a

In my post trial appeal, I submitted affidavits from
my CPAs about the fabrications attributed to them
and pointed out the deliberate misstatement attribut­
ed to me. The prosecution did not contest the fabrica­
tions. My attorneys did not know about the Devereaux
or Bogart cases, so presented the same material facts
as procedural due process violations. During my
direct appeal hearing, the Circuit Court used the
harmless-error standard asking my attorney for, “any
case, civil or criminal,” that stood for the proposition
that a trial does not cure procedural due process.
The more correct question, had my attorneys argued
Devereaux and Bogart, would have been to the prose­
cutor asking for, “any case, civil or criminal,” that
stood for the proposition the government can fabri­
cate evidence to frame and convict an individual.
The district court’s decision and closing of my case
without acknowledging the law of the circuit or grant­
ing me a Certificate of Appealability, gives a new
twist to the inherent institutional bias recognized in
United States v. Goodwin, 457 US 368, 376 (1982)
(“The decisions in these cases reflect a recognition by
the Court of the institutional bias inherent in the
judicial system against the retrial of issues that have
already been decided. The doctrines of stare decisis,
res judicata, the law of the case, [law of the circuit]
and double jeopardy are all based, at least in part, on
that deep seated bias.”) In issuing Writs of Manda­
mus in: In re: Zermeno-Gomez and In re: Dan Farr
Prod., this court recognized “it is clear error for a dis­
trict court to disregard a published opinion of this
court.” In re: Zermeno-Gomez at 1053. Ignoring the
law of the circuit in favor of the law of the case with­
out comment has at the very least, made the process

App.41a

unnecessarily complex, cumbersome and is designed to
keep me incarcerated for as long a period as possible.
The Constitution stands for protecting individual
rights against the excess of government power perpe­
trated through its officials. “[N]o sensible concept of
ordered liberty is consistent with law enforcement
[IRS] cooking up its own evidence.” Spencer at 800
citing Halsey v. Pfeiffer, 750 F.3d 273, 292-93 (CA3
2014). Indeed we are unsure what due process entails
if not protection against deliberately framing under
the color of official sanction.” Limone v. Condon, 372
F.3d 39, 44-5 (CAl 2004) citing Devereaux. One of the
ways to ensure judicial conformity is following the law
of the circuit. Under our “law of the circuit doctrine,”
a published decision of this court constitutes binding
authority “which ‘must be followed unless and until
overruled by a body competent to do so .'Gonzalez v.
Arizona, 677 F.3d 383, 389 n.4 (CA9 2012)(quoting
Hart v. Massanari, 266 F.3d 1155, 1170 (CA9 2001).
Devereaux is not only the law of this circuit, it is the
law of all circuits. “Significantly, all courts that have
directly confronted the question . . . agree that the
deliberate manufacture of false evidence contravenes
the Due Process Clause.” Whitlock v. Brueggeman,
682 F.3d 567,585 (CA7 2012).
RELIEF REQUESTED
I respectfully request a Writ of Mandamus order­
ing the district court to immediately vacate my convic­
tion be issued. If this court feels the district court
needs to hold a hearing, I respectfully request this
court order another judge hold the hearing. I no longer
believe I can get a fair hearing before this judge. If
this court does not feel a writ is appropriate, I

App.42a

respectfully request this court issue a Certificate of
Appealability and grant my appeal. The standards for
the writ of mandamus is higher than for an appeal.
Bauman 654-55. This court has considered issuing writs
in place of appeals. See: United States v. SanchezGomez, 859 F.3d 649 (CA9 2017); Calif. Dept, of Water
Res. v. Powerex Corp., 533 F.3d 1087 (CA9 2008);
and Miller v. Gammie, 335 F.3d 889 (CA9 2003).
Signed this 10th day of
October, 2018 at Terre Haute.
/s/ Albert S.N. Hee
Pro Se Petitioner

App.43a
ALBERT S.N. HEE PETITION FOR CERTIFICATE
OF APPEALABILITY IN THE NINTH CIRCUIT
(OCTOBER 10, 2018)
Albert S.N. Hee
04602-122
FPC Terre Haute
P.O. Box 33
Terre Haute, IN 47808
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ALBERT S.N. HEE,
Petitioner,
v.
UNITED STATES OF AMERICA
Petition for Certificate of Appealability
Cr. No. 14-00826 SOM
In accordance with 28 USC 2253(c)(2), Albert S.N.
Hee (“Petitioner, I, me, my”), requests this court issue
a Certificate of Appealability (“COA”). On March 16,
2018, I filed a Motion under 28 USC 2255 (“habeas”)
with the District Court of Hawaii. On September 25,
2018, my habeas motion was denied. On October 10,
2018, I filed a Petition for a Writ of Mandamus, No.
18-72798 (“mandamus”) with this Court. On January
29, 2019, this Court ordered the District Court of
Hawaii to treat my mandamus petition as a Notice of
Appeal filed on. October 15, 2018. On February 6,

App.44a

2019, this Court ordered the District Court of Hawaii
to either issue or deny a COA. That same day, February
6, 2019, the District Court of Hawaii denied my request
for a COA, a copy of which I received on February 12,
2019. It appears under FRAP 22(b)(2), that the
Notice of Appeal became a request for a COA with
this court when the district court denied me a COA.
see also Slack v. McDaniel, 529 US 473, 483 (2000).
If so, this petition supplements the mandamus-notice
of appeal-request for a COA. If not, please treat this
as a stand alone petition for COA. Prisoners do not
have access to Pacer, therefore I cannot reference
ECF numbers unless they have been previously refer­
enced in another document.
A COA is requires “a substantial showing of the
denial of a constitutional right” that “reasonable jurists
would find the district court’s assessment debatable.
id. at 484. In Barefoot v. Estelle, 463 US 880, 883 n.4
(1983) the court explains: “This threshold inquiry
does not require full consideration of the factual or
legal basis adduced in support of the claims. In fact
the statute forbids it. . . [A] COA does not require a
showing that the appeal will succeed.” Here, the dis­
trict court denied me a COA on the merits of my
Ineffective Assistance of Counsel constitutional allega­
tion and disposed of my other constitutional allega­
tions on procedural grounds. “When the district court
denies a habeas petition on procedural grounds with­
out reaching the underlying constitutional claim, a
COA should issue when the prisoner shows, at least,
that jurists of reason would find it debatable whether
the petition states a valid claim of the denial of a con­
stitutional right and that jurists of reason would find
it debatable whether the district court was correct in

App.45a

its procedural ruling . .. Determining whether a COA
should issue where a petition was dismissed on pro­
cedural grounds has two components, one directed at
the underlying constitutional claims and one directed
at the district court’s procedural holding.” Slack at
484, 485. Where the claims in my petition(s) are
rulings of law and the province of the court, the
“jurists of reason” are assumed to be judges instead
of ordinary citizens who would make up a jury.

BACKGROUND
This case is about a civil tax audit that the IRS
changed to a criminal proceeding resulting ‘in my
indictment. In my trial and direct appeal, I was
represented by counsel. During the civil audit, I was
represented by several Certified Public Accountants
(“CPA”). The IRS assigned an experienced revenue
agent to complete the audit of Sandwich Isles Commu­
nications, Inc. (“Sandwich Isles”) which resulted in a
Notice of Proposed Adjustment (“NOPA”). Immediately
thereafter, the IRS assigned a brand new revenue
agent to audit Waimana Enterprises, Inc. (“Waimana”);
ClearCom Communications, Inc. (“ClearCom”) and
me. The CPAs, each of which had represented clients
in other civil tax audits, found it unusually difficult
to work with the new IRS agent. Conversion of a civil
tax audit to a criminal investigation requires the IRS
Fraud Technical Advisor’s (“FTA”) approval. The
FTA was created after the circuit courts established
circuit law for the IRS to follow during a civil audit to
avoid violating due process, see United States v. Tweel,
550 F.2d 297 (CA5 1977); United States v. Gruenwald, 987 F.2d 531 (CA8 1993). It goes without saying
that if the revenue agent must discover evidence of

App.46a

criminal activity without conducting a criminal inves­
tigation, she cannot deliberately fabricate it.
The brand new revenue agent conducting the
civil audit, with the concurrence of her supervisor,
deliberately fabricated evidence of criminal activity,
recording the fabricated evidence on official IRS forms.
During a grand jury proceeding, my CPA denied
making the fabricated false statement attributed to
him. The US Assistant District Attorney (“prosecu­
tor”) read the fabricated statements from two IRS
forms during questioning of my CPA. The prosecutor
then acknowledged the deliberate fabrication when
answering questions from the grand jury foreman.
“The Constitution prohibits the deliberate fabrication
of evidence . . . ” Spencer v. Peters, 857 F.3d 789, 800
(CA9 2017). The exculpatory evidence, forms and
grand jury transcript, were not produced until three
(3) days before my trial began. During my trial and
direct appeal, my counsels alleged the government’s
deliberate fabricated statements were part of a
larger Brady (Brady v. Maryland, 373 US 83 (1963))
violation of my due process rights involving suppres­
sion of the documents on which the statements were
recorded. The district court denied my request for a
new trial and this court affirmed my conviction in an
unpublished memorandum opinion (United States v.
Hee, 681 Fed Appx 650 (CA9 2017))(“law of the
case”). In my post-trial motion for a new trial, my
counsel produced several affidavits from my CPAs
attesting they did not make the false statements,
habeas exhibits G, H. The government did not contest
my allegations that the IRS revenue agent delib­
erately fabricated false evidence, nor did they provide
contrary affidavits. My counsels failed to allege a

App.47a

Devereaux claim. “A Devereaux claim [Devereaux v.
Abbey, 263 F.3d 1070 (CA9 200l)(en banc)] is a claim
that the government violated due process rights by
subjecting the plaintiff to criminal charges based on
deliberately fabricated evidence.” Bradford v. Scheschligt, 803 F.3d 382, 386 (CA9 2015). This court con­
sidered the evidence the context of a Brady not Dever­
eaux violation. “[T]he Ninth Circuit squarely con­
sidered and ruled on the IRS’s allegedly ‘fabricated
evidence.’” ECF 288, pg. 5991
It was only when I proceeded pro se seeking this
court’s reconsideration of its “law of the case” that I
discovered that if the government’s deliberate fabrica­
tions were alleged as a Devereaux “law of the circuit,”
violation, the criminal charges would have been
dropped. Costanich v. Washington, 627 F.3d 1101, 1110
(CA9 2010)(“Substantive due process protects indi­
viduals from arbitrary deprivation of their liberty by
government.”) However, this court was unable to con­
sider my Devereaux claim on reconsideration because
my appellate counsel had not argued it in the appel­
late briefs. I properly alleged a Devereaux claim in
my habeas motion. Alaimalo v. United States, 645 F.3d
1042, 1046 (CA9 201l)(“As a general rule, “[section]
2255 provides the exclusive procedural mechanism
by which a federal prisoner may test the legality of
his detention.” citing Ivy v. Pontesso, 328 F.3d 1057,
1059 (CA9 2003)”)
In denying my habeas motion and request for a
COA, the district court viewed all of my arguments
and allegations as an “attempt to retry issues
already decided by this court” in “the law of the
case”. Assuming arguendo that the district court is
correct, I would be forever barred relief under the

App.48a

correct Devereaux“law of the circuit” simply because
my counsels argued the material facts by incorrectly
citing the wrong case law. The district court also
used “the law of the case” in denying my ineffective
assistance of counsel (“IAC”) arguments. Although
in-artfully stated, the criminal trial is the prejudice I
suffered because of the IAC and is alleged through­
out my habeas and mandamus.
CONSTITUTIONAL VIOLATIONS
In my habeas motion, I alleged a violation of two
constitutional rights: l) substantive due process; and
2) IAC.
The court denied the first constitutional right
violations procedurally, without ruling on the merits.
The court denied the LAC violation on the merits.
The first constitutional violation, my right to
substantive due process under the Fifth Amendment,
was not alleged correctly and considered as a Devereaux claim in my trial and direct appeal. Specifically,
I alleged in my habeas motion, the government’s
primary investigator and her supervisor deliberately
fabricated evidence during a civil tax audit which
resulted in my criminal charges, trial and conviction.
The deliberate fabricated evidence, recorded on official
IRS forms, was uncontested by the prosecutors. Even
if they did contest it, “an interviewer who deliberate­
ly mischaracterizes witness statements in her investi­
gative report. . . commits a constitutional violation”
Costanich, 627 F.3d at 1111. The government’s deliber­
ate fabrications and my subsequent criminal charges
are the only two elements of a Devereaux claim. This
court has held; a violation of substantive due process
rights in a Devereaux claim, prohibits the government

App.49a

from bringing criminal charges as the “law of the
circuit.” Reasonable jurists would agree with the
jurists sitting en banc in Devereaux, Costanich; Brad­
ford v. Scheschligt, 803 F.3d 382 (CA9 2015); and
Spencer v. Peters, 857 F.3d 798 (CA9 2017) that my
uncontested allegations of the government’s deliber­
ate fabricated false statements violates my constitu­
tional due process rights and find the district court’s
refusal to grant me habeas relief and vacate my con­
viction debatable and wrong.
The district court dismissed my second constitu­
tional violation claim, ineffective assistance of counsel,
on its merits. However, consideration of the merits of
my arguments were prejudiced by the district court’s
decision to rely on this court’s memorandum opinion
in my direct appeal. The district court’s reliance on
the unpublished “law of the case” negated each of my
arguments and concluded there was no prejudice.
“These arguments were all made to this court and
the Ninth Circuit.” ECF 288, pg 5989. The standard
for ineffective assistance of counsel “requires a show­
ing of both deficient performance by counsel and con­
sequent prejudice.” ECF 288, pg 5996, citing Ellis v.
Harrison, 891 F.3d 1160, 1166 (CA9 2018)(citing
Strickland v. Washington, 466, US 668, 687 (1984)).
“He[e] argues that, had his attorneys properly re­
viewed this evidence prior to trial, “they would have
uncovered evidence of the government’s misconduct
and had the charges dismissed” or “moved to delay
the start of the trial.” ECF 288 pg 5996, citing ECF
268-2, pg 5972, 5682. Both my habeas and mandamus
argued that the Charges would have been dismissed
under the Devereaux “law of the circuit” resulting in
NO trial.

App.50a

The district court dismissed my allegation that my
counsels’ decision not to delay the start of the trial
without consulting me was IAC because the decision
was tactical and deserved deference in view of “the
law of the case.” Reliance on the “law of the case”
assumes I received a fair trial. In Lafler v. Cooper,
182 L Ed 2d 398, 407-8 (2012), the government argued
that a fair trial cures any prejudice caused by IAC.
The court disagreed, finding a fair trial does not pre­
clude prejudice. In fact the trial itself is the preju­
dice. “Hee fails to demonstrate that he suffered any
prejudice . . . the Ninth Circuit reviewed these docu­
ments in the context of a Brady argument...” ECF
288, pg 5998-9. This is the error. The decision to allow
the trial to continue was’ not trial counsel’s to make.
If my counsels had delayed the trial to conduct a full
investigation of the documents just produced which
contained the exculpatory evidence of a Devereaux
claim, they would have separated the deliberate
fabrications from the Brady claim, “the Ninth Circuit
would have reviewed these these documents in the
context of a Devereaux argument.” The Strickland
prejudice was the trial itself. “Far from curing the
error, the trial caused the injury from the error.”
Lafler at 409.
CERTIFICATE OF APPEALABILITY
In denying my request for a COA, the district
court did not consider the merits of my claim that I
was denied my substantive constitutional due
process rights as a Devereaux claim, instead dismis­
sing my request for a COA on the same procedural
grounds it dismissed my habeas motion. There is no
indication or reference to the merits of the contro-

App.51a

versy between the “law of the case” and “law of the
circuit” contained in my notice of appeal. The courts
are required to consider the claims in the habeas
petition before denying a COA. United States v. ZuniAcre, 339 F.3d 886, 889 (CA9 2003):see Miller-El v.
Cockrell, 537 US 322, 123 S.Ct. 1029, 1039 (2003)
(“The COA determination under [section] 2253(c)
requires an overview of the claims in the habeas
petition and a general assessment of their mer­
its ...): The district court again cited this court’s
unpublished memorandum opinion as the “law of the
case” to procedurally deny my request for a COA
without distinguishing the material facts from those
in the Devereaux “law of the circuit.”
Under the “law of the case,” a district court gen­
erally cannot reconsider an issue that has already
been decided by this court. However, this court has
recognized exceptions to the “law of the case” doc­
trine, where “the decision is clearly erroneous and its
enforcement would work a manifest injustice.”
Jeffries v. Wood, 114 F.3d 1484, 1489 (CA9 1997)(en
banc). When the “law of the case” conflicts with the
“law of the circuit,” a court should be especially
aware such an exception may be present. This court
did not have the opportunity to rule on the similari­
ties of my case to Devereaux law in deciding the “law
of the case.” The district court procedurally denied
my COA because it did not want to consider a
Devereaux claim. A Devereaux claim requires two
material facts; first, the government deliberately fabric­
ated false evidence; and second, the government
brought criminal charges based on the fabrications.
Both of these material facts are uncontested in my
case. The denial of my habeas motion and COA based

App.52a

on the “law of the case” when the material facts are
the same as Devereaux law, denies me due process
and my loss of liberty is a manifest injustice, id. at
1492 (“at a minimum, the challenged decision should
involve a significant inequity of a right before being
characterized as manifestly unjust.” The “law of the
circuit” takes precedence over an unpublished opin­
ion. In Re: Rodrigo Semenov-Gomez, 868 F.3d 1048,
1052 (CA9 2017)(“Under our “law of the circuit
doctrine,” a published decision of this court con­
stitutes binding authority “which ‘must be followed
unless and until overruled by a body competent to do
so.’“ citing Gonzalez v. Arizona, 677 F.3d 383, 389
(CA9 2012)(en banc)).
The district court is not a “body competent” to
overrule a “law of the circuit”. Hart v. Missionary,
266 F.3d 1155, 1170 (CA9 200l)(“A district judge
may not respectfully (or disrespectfully) disagree
with his [her] learned colleagues on his [her] own
court of appeals who have ruled on a controlling legal
issue. . . Binding authority within this regime
cannot be considered and cast aside; it is not merely
evidence of what the law is. Rather, case law on point
IS the law. If a court must decide an issue governed
by a prior opinion that constitutes binding authority,
the later court is bound to reach the same result,
even if it considers the rule unwise or incorrect.”)
When I brought the Devereaux law to the district
court’s attention, it should have determined there
were no differences in material facts and granted my
habeas motion or distinguished my case from
Devereaux law. The three judge panel deciding the
unpublished memorandum opinion could not have
made its ruling if my counsel had pointed out the

App.53a

Devereaux law especially since Devereaux was decided
en banc. Hart at 1171 (“[Binding authority] “binds all
courts within a particular circuit, including the court
of appeals itself. Thus, the first panel to consider an
issue sets the law not only for all the inferior courts
in the circuit, but also future panels of the court of
appeals. Once a panel resolves an issue in a prece­
dential opinion, the matter is deemed resolved, unless
overruled by the court itself sitting en banc, or by the
Supreme Court.”)
The district court’s procedural dismissal of my
habeas motion and COA based on an unpublished
opinion by a three judge panel of this circuit as being
the “law of the case” defies previous “law of the
circuit” precedence and the exceptions to the “law of
the case.” see Miller v. Gammier, 335 F.3d 889, 900
(CA9 2003)(en bancXholding that unless a case is
overruled, a three judge panel is bound by the deci­
sions of a previous en banc panels. “A goal of our
circuit’s decisions, including panel and en banc deci­
sions, must be to preserve the consistency of circuit
law.”); Antonio v. Wards Cove Packing Co., 810 F.2d
1477, 1479 (CA9 1987)(“A panel faced with [a conflict
between precedent] must call for en banc review
. . . unless the prior decision can be distinguished.”);
Marshall v. Rodgers, 185 L.Ed.2d 540, 545 (2013)
(holding that in a habeas action an appellate panel
may, in accordance with its usual law of the circuit
procedures look to circuit precedence, but, may not
look to other circuits to determine the likelihood of a
Supreme Court decision.) Here there are no differences
in the material facts with Devereaux law. Jurists of
reason would agree with the jurists of this court in
Miller, supra, finding the district court’s continued

App.54a

reliance on unpublished “law of the case” to procedurally dismiss my habeas motion and COA after
being made aware of the published, en banc, Devereaux
“law of the circuit” debatable and wrong.
STRUCTURAL ERROR
My habeas motion pointed out the errors were
structural and therefore the district court’s decision
was not subject to the harmless error standard of
review. I will not restate them here. Additionally, the
district court’s decision denying my IAC claim based
on deference to my counsels’ “tactical decision” to let
the trial begin is wrong. Tactical decisions deserve
difference if it does not challenge the objective of the
trial. Here, the objective was to dismiss the charges.
Any decision which does not support the objective
must be made by me. McCoy v. Louisiana, 200 L.Ed 2d
821 (2018) (holding the Federal Constitution’s Sixth
Amendment guarantees criminal defendant’s right to
choose objective of his defense. The accused and not
counsel is the master of his own defense. The viola­
tion of the Sixth Amendment-secured autonomy is a
structural error.)
INTERVENING AUTHORITY
Since my trial, this court has decided intervening
authority clarifying Devereaux law. see Spencer v.
Peters supra. Additionally, the US Supreme Court
has decided an IRS case which directly effects my
case and was unavailable to me via the prison law
library, until after filing my habeas motion. In Marinello v. United States, 200 L.Ed 2d 356, (2018), the
court established minimum standards for conviction
under 26 USCS section 7212(a). Based On the deci-

App.55a

sion, I was wrongly convicted which resulted in an
additional 10 months added to my sentence. As in
Marinello, the government wrongly added on this
charge as “a catchall for every violation that inter­
feres with what the Government describes as the
“continuous, ubiquitous and universally known” admin­
istration of the IRS code. ... the Code creates numer­
ous misdemeanors [including] failure to pay any tax
owed, Section 7203.” Marinello at 363. The court has
held that the government must prove a nexus, “an
intent to influence judicial or grand jury proceedings
[and] the acts must have a relationship in time, caus­
ation, or logic with the judicial proceedings.” [citations
omitted] id. at 362. The IRS proceeding took nine (9)
years from beginning of the civil audit to trial. During
this time, I continued to operate the businesses in the
same manner as I had during the previous 10 years. I
did not change anything. “As one of my CPAs com­
mented after I was convicted, “I don’t understand
why this is criminal. We gave them everything and
explained each step. We did not make any effort to
hide or change any of our procedures.” If this court
finds in my favor, Marinello will be of no consequence.
However, if this court is not able to, I intend to
pursue both the Devereaux and Marinello claims. I
do not want to do anything which may slow this
current case from being decided. I bring this to the
court’s attention to comply with equitable tolling of
seeking relief as I did not have a chance to include
this in my habeas.
CONCLUSION
The circuit law regarding reliance on an un­
published “law of the case” which is inapposite to a

App.56a

published “law of the circuit,” decided en banc, is
clear and unambiguous. The use of a habeas motion
to correct my counsels’ failure to cite the correct
circuit law is proper. The “law of the circuit” deals
with violations of my constitutional right to substan­
tive due process. My counsels’ failures were constitu­
tionally deficient. I request his court grant relief by
vacating my conviction and immediately releasing
me from custody. In the alternative, I request this
court order the district court to reverse its decision in
my habeas motion to conform with the “laws of this
circuit” by vacating my conviction, finding my counsels
deficient and immediately release me from custody.
Signed this 19 day of February, 2019
at Terre Haute, FPC

/s/ Albert S.N. Hee
Petitioner, Pro Se

w
r
>
>
O

w

